         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                     Catalyst for Improving the Environment


Evaluation Report



          Voluntary Greenhouse Gas
          Reduction Programs Have
          Limited Potential
          Report No. 08-P-0206

          July 23, 2008
Report Contributors:      Jill Ferguson
                          Jeffrey Harris
                          Jeffrey S. Hart
                          Kalpana Ramakrishnan
                          Thane Thompson
                          Steven Weber




Abbreviations

C2P2         Coal Combustion Partnership Program
CBI          Confidential Business Information
CCAP         Climate Change Action Plan
CFR          Code of Federal Regulations
CH4          Methane
CMOP         Coalbed Methane Outreach Program
CO2          Carbon Dioxide
EPA          U.S. Environmental Protection Agency
GHG          Greenhouse Gas
GWP          Global Warming Potential
HCFC         Hydrochlorofluorocarbon
HFC          Hydrofluorocarbon
IPCC         Intergovernmental Panel on Climate Change
LMOP         Landfill Methane Outreach Program
MAC          Marginal Abatement Curve
MMTCE        Million Metric Tons of Carbon Equivalent
MMTCO2eq     Million Metric Tons of CO2 Equivalent
MOU          Memorandum of Understanding
OAR          Office of Air and Radiation
OIG          Office of Inspector General
OMB          Office of Management and Budget
OSWER        Office of Solid Waste and Emergency Response
PART         Program Assessment Rating Tool
PFC          Perfluorocarbon
SF6          Sulfur Hexafluoride
UNFCCC       United Nations Framework Convention on Climate Change
VAIP         Voluntary Aluminum Industrial Partnership




Cover:       Logos of some of the programs examined (from EPA).
                       U.S. Environmental Protection Agency 	                                             08-P-0206
                       Office of Inspector General                                                     July 23, 2008




                       At a Glance

                                                                          Catalyst for Improving the Environment

Why We Did This Review
                                 Voluntary Greenhouse Gas Reduction Programs
We did this review to evaluate   Have Limited Potential
the extent to which the U.S.
Environmental Protection          What We Found
Agency’s (EPA’s) Greenhouse
Gas (GHG) voluntary              The set of voluntary GHG programs we reviewed use outreach efforts to recruit
programs can significantly       program partners and reduce GHG emissions. We found the greatest barriers to
reduce future GHG emissions,     participation were the perceived emission reduction costs and reporting
and whether their data is        requirements. We also found that it is unlikely these voluntary programs can
complete and reliable.           reduce more than 19 percent of the projected 2010 GHG emissions for their
                                 industry sectors. From this, we determined that if EPA wishes to reduce GHG
Background                       emissions beyond this point, it needs to consider additional policy options.

Concerns about human-caused      We recognize that data collection can be challenging for voluntary programs.
global warming and the           However, 8 of the 11 programs in our review showed weaknesses in their current
potential impacts of GHG         data collection and reporting systems – caused by limited, unverified, and
emissions were first raised in   anonymous data reporting. These systems are neither transparent nor verifiable,
the 1960s. In 1992, the United   and are limited by anonymous reporting and use of third party industry data.
States signed and Congress       Further, none of the programs' memoranda of understanding establish
ratified the United Nations      consequences for failure to report, and generally provided little assurance that
Framework Convention on          firms are actively participating in the program. EPA has been a leader in
Climate Change Treaty in         developing protocols to produce estimates for greenhouse gas sources and sinks
Rio de Janeiro. The “Rio”        categories in the United States. However, data uncertainty has continued to be a
Treaty requires the United       concern the voluntary programs have struggled to address. As a result, the
States to implement programs     reported accomplishments of these voluntary programs may be based on
to reduce GHG emissions.         unreliable data.
The United States decided to
achieve this goal through         What We Recommend
implementing voluntary
programs.                        We recommend EPA review emission reduction cost analyses annually and
                                 update as needed. For programs that recruit and enroll participants, EPA should
                                 adopt written partnership agreements that require stronger data quality provisions
                                 and details on how Confidential Business Information (CBI) will be handled. For
                                 programs that do not recruit and enroll participants, EPA should develop a policy
For further information,         or procedure that specifically identifies how these voluntary GHG programs link
contact our Office of            their reported outcomes to program efforts.
Congressional and Public
Liaison at (202) 566-2391.
                                 The Agency concurred with most of the recommendations, but expressed concern
To view the full report,         with developing emission reduction cost analyses for programs that serve multiple
click on the following link:     industry sectors, and about their ability to safeguard CBI data. The OIG believes
www.epa.gov/oig/reports/2008/    that developing analyses for individual sectors and specifying in partnership
20080723-08-P-0206.pdf
                                 agreements how CBI data will be handled will meet the intent of these
                                 recommendations.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL

                                           July 23, 2008

MEMORANDUM

SUBJECT:	              Voluntary Greenhouse Gas Reduction Programs Have Limited Potential
                       Report No. 08-P-0206


FROM:                  Wade T. Najjum
                       Assistant Inspector General for Program Evaluation

TO:	                   Robert J. Meyers
                       Principal Deputy Assistant Administrator
                       Office of Air and Radiation

                       Susan Bodine
                       Assistant Administrator
                       Office of Solid Waste and Emergency Response


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $445,318.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. If you or your staff has any questions regarding this report, please contact me at
202-566-0827; or Jeffrey Harris, Director of Special Studies, at 202-566-0831 or
harris.jeffrey@epa.gov.
Voluntary Greenhouse Gas Reduction Programs                                                                               08-P-0206
Have Limited Potential


                                  Table of Contents 

Chapters
   1    	Introduction ...........................................................................................................     1


                Purpose ........................................................................................................      1

                Background ...................................................................................................        1

                Noteworthy Achievements .............................................................................                 3

                Scope and Methodology ................................................................................                4


   2	   Emission Reduction Potential of Selected Voluntary

        Greenhouse Gas (GHG) Programs Is Limited ....................................................                                 5


                Programs Focus on Outreach, But Barriers to Participation Remain ............                                         5

                Voluntary Programs Have Limited Potential to 

                   Reduce Additional GHG Emissions...........................................................                        7

                Conclusions ...................................................................................................      9

                Recommendations .........................................................................................           10             

                Agency Comments and OIG Evaluation ........................................................                         10 


   3	   Reporting and Data Limitations Impede 

        Assessment of Voluntary GHG Programs ..........................................................                             11


                Current Guidelines Do Not Address Voluntary Reporting Issues ...................                                    11 

                Voluntary Program Data Are Often Incomplete ..............................................                          12 

                Memoranda of Understanding Lack Consequences for Not Reporting ..........                                           13 

                Conclusions ...................................................................................................     14         

                Recommendations .........................................................................................           14         

                Agency Comments and OIG Evaluation.........................................................                         15 


   Status of Recommendations and Potential Monetary Benefits.................................                                       16     



Appendices
   A    Detailed Scope and Methodology .......................................................................                      17     


   B    Reported Program Outcomes .............................................................................                     19


   C    Example of a Voluntary Program MOU ..............................................................                           20


   D    Selected Voluntary GHG Program Descriptions ...............................................                                 23


   E    Agency Comments and OIG Evaluation .............................................................                            25     


   F    Distribution ...........................................................................................................    35     

                                                                                 08-P-0206 




                               Chapter 1
                                Introduction
Purpose
          The purpose of this evaluation was to determine whether our selected set of
          EPA’s Greenhouse Gas (GHG) voluntary programs are effectively managed, and
          whether these programs have the potential to make significant reductions in GHG
          emissions. Our specific goals for these programs were to determine:

          (1) The extent to which the voluntary GHG programs in our review can
              contribute to further GHG emission reductions; and
          (2) Whether outcome data for the voluntary GHG programs in our review are
              accurate and complete.

Background
          Concerns about human-caused global warming and the potential impacts of GHG
          emissions were first raised in the 1960s. By the mid-1980s, governments decided
          that this complex issue needed to be addressed impartially by an independent
          body and in 1988 established the United Nations Intergovernmental Panel on
          Climate Change (IPCC). Establishing the IPCC led to creating the United
          Nations Framework Convention on Climate Change (UNFCCC).

          At the 1992 meeting in Rio de Janeiro, Brazil, the United States signed the
          UNFCCC “Rio” Treaty, and it was ratified by Congress in October 1992. The
          signatory governments to this treaty agreed to:

             •	 gather and share information on greenhouse gas emissions, national
                policies, and best practices;
             •	 launch national strategies for addressing greenhouse gas emissions and
                adapting to expected impacts, including the provision of financial and
                technological support to developing countries; and
             •	 cooperate in preparing for adaptation to the impacts of climate change.

          After Congress ratified the Rio Treaty, the Clinton Administration developed the
          1993 Climate Change Action Plan (CCAP), which implemented voluntary GHG
          emission reduction programs to meet the treaty goals. Nine of the 11 programs
          included in this evaluation were included in the 1993 CCAP (Table 1.1 below).
          The HFC-23 program was not included as part of the CCAP but began in 1993.
          The Coal Combustion Partnership Program (C2P2) began in 2003.




                                          1

                                                                                                     08-P-0206


                 Table 1.1: Selected Voluntary GHG Programs included in the CCAP
                                                                                                      Year
                                    Program                          Industry Sector Served
                                                                                                     Begun
                  WasteWise                                       Numerous sectors                     1992

                  AgSTAR                                          Manure management                    1993

                  Natural Gas STAR                                Natural gas systems                  1993
                  SF6 Emission Reduction Program for the          Magnesium production and
                                                                                                       1994
                  Magnesium Industry* (SF6-Magnesium)             processing
                  SF6 Emission Reduction Program for the
                                                                  Electrical transmission and
                  Electrical Power Systems* (SF6-Electric                                              1994
                                                                  distribution
                  Power)
                  PFC Reduction / Climate Partnership for
                  the Semiconductor Industry* (PFC-               Semiconductor manufacturing          1994
                  Semiconductor)
                  Coalbed Methane Outreach Program
                                                                  Coal mining                          1994
                  (CMOP)
                  Landfill Methane Outreach Program
                                                                  Landfills                            1994
                  (LMOP)
                  Voluntary Aluminum Industrial Partnership
                                                                  Aluminum production                  1995
                  (VAIP)
                 Source: 1993 U.S. Climate Change Action Plan.
                 * From 1994 to 1997, emissions from these three industry sectors were addressed under an
                 initiative called Environmental Stewardship.

                 The current Administration has pledged to reduce GHG intensity by 18 percent by
                 2012.1 The programs in our evaluation set are among the tools being used to meet
                 that initiative. Other EPA voluntary programs focus on reducing GHG emissions
                 from fossil fuel combustion for energy and transportation. The voluntary
                 programs in our sample target a wide variety of GHGs, including carbon dioxide
                 (CO2), methane (CH4), and several high global warming potential (GWP) gases.
                 The industry sectors and emission sources addressed by these programs had the
                 potential to emit a total of 5472 million metric tons of CO2 equivalent
                 (MMTCO2eq.3) in 2005. Our sample set represents about 7.5 percent of the total
                 U.S. GHG emissions. Most programs target specific industry sectors and GHGs.


1
  GHG intensity is a comparative ratio that divides the total annual U.S. GHG emissions by the annual U.S.
economic output expressed in Gross Domestic Product. The voluntary programs do not report in GHG intensity,
rather programs report quantities of GHGs reduced.
2
  Source: Global Anthropogenic Non-CO2 Greenhouse Gas Emissions, 1990 – 2020, June 2006. This emission
volume reflects the 2005 year data for No-Action Baseline (which removes the impacts of voluntary GHG programs
outcomes) for these programs’ industry sectors. According to the most recent Inventory of U.S. Greenhouse Gas
Emissions and Sinks: 1990-2006 (April 15, 2008, EPA 430-R-08-005), which includes the impacts of reported
outcomes from voluntary GHG programs, the total emissions from these sectors is estimated at 422 MMTCO2eq.
Because WasteWise addresses numerous sectors, the program's GHG emission volumes are not included in the 2005
potential GHG emissions volumes. See Appendix D for additional program details.
3
  Scientists and policymakers use global warming potentials (GWPs) to compare the ability of each greenhouse gas
to trap heat in the atmosphere in comparison to other gases. MMTCO2 eq. is calculated by converting various
gasses into an equivalent measure of CO2 equivalent. CO2, was chosen as the reference gas to be consistent with
international guidelines. For example, CH4 has a GWP of 21, meaning CH4 has 21 times greater potential to trap

                                                       2

                                                                                                       08-P-0206


                 Table 1.2 below illustrates which GHG each program targets, their 2006 funding
                 levels, and the number of participants that each program had in 2006.

                 Table 1.2: Voluntary Program GHG Emission Targets, Funding, and Participants4
                                                                        2006          2006
                                                     Target
                             Program                                  Funding      Participant
                                                 GHG Emission
                                                                       Level*         Level
                  AgSTAR**                                  Methane
                                                            
       (CH4)            $700,000           n/a
                  Coal Combustion Partnership 
             Carbon Dioxide 

                                                                                     $383,000           150
                  Program (C2P2) 
                              (CO2) 

                  CMOP**                                         
CH4
             $1,800,000           n/a
                                                         Hydrofluorocarbon 

                  HFC-23 Program                                                     $100,000             3
                                                             (HFC)-23

                  LMOP                                           CH4
              $1,900,000           604

                  Natural Gas STAR                               CH4
              $3,600,000           107
                                                         Perfluorocarbon 

                  PFC-Semiconductor                                                  $480,000            17
                                                               (PFC) 

                                                        Sulfur Hexafluoride 

                  SF6-Electric Power                                                 $300,000            80
                                                                (SF6) 

                  SF6-Magnesium                                  SF6
                $480,000            15

                  VAIP                                           PFC                 $240,000             7 


                  WasteWise                                   CO2, CH4
            $1,029,000         1900



                  Total Funding and Participant Levels                            $11,012,000          2883
                 Source: OIG program questionnaires and interviews with EPA program managers.
                 * Includes salaries, travel, and extramural funds. 

                 **Program does not formally enroll participants. 



Noteworthy Achievements
                 In general, the EPA voluntary GHG programs we reviewed have processes in
                 place to conduct planning, target outreach efforts, and implement the programs.
                 Each program reports achieving annual emission reductions (see Appendix B for
                 each program's 2003-2005 reported outcomes). Also, nearly all the programs
                 create annual business plans and conduct detailed industry research to help target
                 outreach activities.5 The business plans are based on a program's knowledge of
                 its specific industry sector, and help identify prospective participants that have the
                 highest likelihood of reducing emissions. Most of the 10 business plans we

heat in the atmosphere than CO2. Throughout this report, the reported quantities of various emitted GHGs were 

converted into quantities of CO2 equivalent to allow us to speak to each of the programs in the same units. 

4
  See Appendix D for voluntary program descriptions. 

5
  HFC-23 does not create business plans because it has already enrolled all three of its potential partners. 


                                                        3
                                                                                   08-P-0206


         reviewed also included historical and projected emission reductions, status and
         trends of industry sector, barriers to participation, program strategy and emission
         reduction targets, descriptions of outreach efforts, budget information, and
         program accomplishments.

Scope and Methodology
         Our selected evaluation set consists of 11 EPA voluntary programs that report
         GHG emission reductions from specific industry sectors. Nine of the programs in
         our evaluation set are operated by the Office of Air and Radiation (OAR), and
         two are operated by the Office of Solid Waste and Emergency Response
         (OSWER). We selected these particular voluntary GHG programs based on their
         ability to provide outcome data for the years 2003 through 2005. Further, because
         the OIG was already reviewing the ENERGY STAR program, this program was
         not included in this evaluation.

         The total U.S. GHG emissions estimates for 2005 were 7,241.5 MMTCO2eq.
         The majority of these GHGs are CO2 emissions that come from fossil fuel
         combustion for energy and transportation. The industry sectors and emission
         sources addressed by these 11 programs in 2005 (not taking into account the
         reductions attributed to EPA's voluntary programs) had the potential to emit a
         total of 547 MMTCO2eq. Therefore, our sample set represents about 7.5 percent
         of the total U.S. GHG emissions. While the two OSWER programs addressed in
         this evaluation are primarily waste reduction programs, they both report achieving
         secondary GHG emission reduction benefits, which is why they are included in
         this study. We also relied on EPA’s program data. Shortcomings of the data are
         discussed in Chapter 3. (See Appendix A for a detailed scope and methodology.)

         Previous OIG reports on EPA voluntary programs include report no. 2005-P-
         00007, Ongoing Management Improvements and Further Evaluation Vital to EPA
         Stewardship and Voluntary Programs, February 17, 2005; report no. 2007-P-
         00003, Partnership Programs May Expand EPA’s Influence, November 14, 2006;
         report no. 2007-P-00028, ENERGY STAR Program Can Strengthen Controls
         Protecting the Integrity of the Label, August 1, 2007; and report no. 2007-P-00041,
         Voluntary Programs Could Benefit from Internal Policy Controls and a Systematic
         Management Approach, September 25, 2007. We also reviewed data collected
         from our 2006 report as they related to the findings discussed in this report.

         We performed our evaluation between June 2007 and April 2008 in accordance
         with generally accepted government auditing standards issued by the Comptroller
         General of the United States. Those standards require that we plan and perform
         the audit to obtain sufficient and appropriate evidence to provide a reasonable
         basis for our findings and conclusions based on our objectives. We believe that
         the evidence obtained provides a reasonable basis for our findings and
         conclusions based on our audit objectives.



                                          4

                                                                                    08-P-0206 





                                Chapter 2
 Emission Reduction Potential of Selected Voluntary
    Greenhouse Gas (GHG) Programs Is Limited
          The voluntary GHG programs we reviewed rely on outreach to program partners
          and recruitment of new partners to reduce GHG emissions. We found the greatest
          barriers to participation were perceived emission reduction costs and reporting
          requirements. Because of emission reduction costs, as well as some barriers to
          participation, it is unlikely these voluntary programs can reduce more than
          19 percent of the projected 2010 GHG emissions for their industry sectors.

Programs Focus on Outreach, But Barriers to Participation Remain
          All of the programs under review in this evaluation conduct some form of
          outreach to their target industry or constituency. In fact, most programs stated
          that outreach, including technical assistance, is the primary service provided to
          their customers. Two general types of outreach efforts are recruitment of new
          partners, and ongoing services and technical assistance for current participants.
          The techniques used for both types of outreach are included in the programs’
          business plans, including detailed recruitment activities, ongoing services, and
          emissions reductions goals for the next fiscal year. However, several barriers
          prevent some participants from adopting emissions reductions processes or
          technologies.

          Unlike traditional compliance programs, voluntary programs conduct outreach to
          persuade their participants to engage in voluntary efforts. However, some
          significant barriers and challenges exist to accomplishing this effort, some of
          which have been identified in Table 2.1 below. As shown below, the greatest
          challenge to getting new participants to become partners is the perceived cost of
          emission reduction. Of the 11 programs, 7 stated that cost was perceived a
          significant barrier. Program reporting requirements were the next most prevalent
          barrier. Even for programs that have a large number of current participants,
          getting them to provide data continues to be a challenge. This will be discussed
          further in Chapter 3.




                                           5

                                                                                                                                                  08-P-0206


Table 2.1 Barriers That Impede Program Participant Enrollment




                                                                                         PFC-Semiconductor

                                                                                                             SF6-Electric Power
                                                                      Natural Gas STAR




                                                                                                                                  SF6-Magnesium
      Type of Barrier




                                                                                                                                                          WasteWise
                               AgSTAR




                                                      HFC-23
                                        CMOP




                                                               LMOP
                                               C2P2




                                                                                                                                                   VAIP
 Perceived cost of
 emission reduction            √        √             √        √      √                                                           √               √
 technology
 Don't want to provide
 data, or getting data from                                           √                  √                                                                √
 participants is a challenge
 Concerned about
 "working" with a                       √                      √                                             √
 regulatory Agency
 Size of industry sector                                              √                                      √
 Distance between facility
                                        √      √
 and market
 Understanding of the
                                               √
 problem/solution
Source: OIG program questionnaires and interviews with EPA program managers.

Three of the programs experience barriers due to the participants being concerned
about "working" with a regulatory agency, and two reported barriers related to the
size of their industry sector. Further, C2P2 stated that it has challenges
convincing its target industry sector (construction industry) that coal combustion
byproducts are a quality substitute for Portland cement. Also, both the
SF6-Electric Power and Natural Gas STAR stated that the sheer size of their
targeted industry sector made outreach more difficult. Finally, CMOP stated that
it has difficulty getting access to and convincing some companies in the coal
mining industry to even meet with or have contact with the Agency.

In general, these programs engage in well-targeted outreach activities designed to
enroll potential participants. Most programs develop business plans that discuss
management challenges, such as non-reporting partners and other barriers to
participation, as well as some strategies to overcome these barriers. However,
because these programs are voluntary, the most significant barrier that impacts the
success of these programs relates to convincing companies to spend money on
activities that are entirely optional. This barrier presents a significant challenge to
using voluntary programs as the current solution to reducing GHG emissions.




                                        6

                                                                                                  08-P-0206


Voluntary Programs Have Limited Potential to
Reduce Additional GHG Emissions
          The EPA, aware of the challenge of the perceived cost of emission reductions, has
          developed economic analyses that identify how much it would cost to reduce
          emissions in each industry sector. These analyses, called Marginal Abatement
          Curves (MACs), provide estimates of how much of an industry’s total future
          emissions can be reduced at a given cost per ton of emissions reduction.

          The MACs identify which industry sectors have economically feasible reductions
          that they can make. This information is one of the tools that helps EPA determine
          where to target these outreach efforts.

          Table 2.2: Marginal Abatement Curves for Selected Industry Sectors
                                                        Potential 2010 Emission Reductions at Various
                                        Projected
                                                                Abatement Costs per Ton CO2
                                          2010
                  Program                                   (Numbers Expressed in Percentages)
                                       Emissions
                                      (MMTCO2 eq.)         $0        $15         $30        $45          $60
           AgSTAR                          41.3           6.40       9.40       17.20      21.40         21.40
           Coal Combustion
                                            n/a           n/a         n/a        n/a        n/a           n/a
           Products Partnership*
           Coalbed Methane
                                           51.1          49.22      85.97       85.97      85.97         85.97
           Outreach Program
           HFC-23 Emission
                                           26.3           0.00      95.06       95.06      95.06         95.06
           Reduction Program
           Landfill Methane
                                           125.4         10.00      42.14       42.14      80.71         87.31
           Outreach Program
           Natural Gas STAR                138.6         14.52      19.24       28.14      35.47         54.76
           PFC-Semiconductor               28.2          56.74      70.92       89.36      94.33         94.33
           SF6-Electric Power              17.6          48.69      57.10       57.10      57.10         57.10
           SF6-Magnesium                    4.6           0.00      97.83       97.83      97.83         97.83
           Voluntary Aluminum
                                           14.7           7.76      42.04       50.88      50.88         50.88
           Industrial Partnership
           WasteWise*                       n/a           n/a         n/a        n/a        n/a           n/a
           Totals for Sampled
                                          447.8          19.24      43.11      48.04       61.81         69.63
           Industry Sectors**
          Source: Global Mitigation of Non-CO2 Greenhouse Gases, EPA Report, June 2006.
          * MACs not calculated for these industry sectors. 

          ** Emission reduction percentages for the total MAC percentage levels are calculated using 

          emission-weighted averages.


          Further, the MACs show how much potential (in projected 2010 emission levels)
          a voluntary program can have in reducing emissions in each industry sector, and
          can demonstrate to industry participants the net economic benefit of installing
          abatement technology.

          For example, Table 2.2 above shows the range of net abatement costs for reducing
          GHG emissions in a given industry sector. These costs range from $0/ton CO2 eq.
          through $60/ton CO2 eq., and the table then shows the corresponding percentage

                                                   7

                                                                                                     08-P-0206 



                 of all emissions that could be reduced at that cost. Note that EPA’s current
                 voluntary program effort is equivalent to the $0/ton CO2 eq. level. What
                 Table 2.2 illustrates is that, on average, our selected voluntary GHG programs
                 have the potential to reduce an additional 19 percent of projected emissions in
                 2010. However, this assumes that all economically feasible emission reductions
                 will be reduced. This projected potential, however, does not take into account the
                 various challenges to participation or other barriers discussed above. Further, the
                 19-percent potential is not a static level. It only shows the additional emission
                 reduction potential for the voluntary programs in this study.

                 Figure 2.1 on the next page shows the potential emission reductions that could be
                 achieved if additional abatement costs were reduced. For example, if abatement
                 costs were offset or reduced up to $15/tCO2eq., the potential economically
                 feasible emissions reductions of these programs would increase from 86 tons of
                 CO2 eq. to 193 tons of CO2 eq. in 2010.

                 The utility of MAC analyses is dependent upon the quality of the incorporated
                 data.6 For example, the MAC data in Table 2.2 above incorporates projected
                 abatement technology costs and uses estimates for the total GHG emissions for
                 each sector. These calculations are generally updated every other year, but
                 sometimes only when new emission reduction technology has been developed.
                 The existing MAC analyses calculate the abatement potential that can be achieved
                 economically. However, the Coal Combustion Products Partnership and
                 WasteWise programs do not have MACs. Without the most up-to-date MACs,
                 EPA may not have the information that it needs to best target their resources to
                 participants that have the highest likelihood of participating in the program.




6
 These emission reductions are projections, and are not based on complete data because MACs do not exist for the
Coal Combustion Partnership Program (C2P2) or the WasteWise program.


                                                       8

                                                                                            08-P-0206


         Figure 2.1: Emission reduction volumes per program for various MAC levels

                           Projected 2010 Reductions Using MACs
                     120
                                                                             AgSTAR



                                                                             Coalbed Methane
                     100                                                     Outreach Program


                                                                             HFC 23 Emission
                                                                             Reduction Program

                      80
                                                                             Landfill Methane Outreach
                                                                             Program
          MMTCO2eq




                                                                             Natural Gas STAR
                      60


                                                                             PFC Emission Reduction
                                                                             Partnerships for Semi-
                                                                             Conductors
                      40
                                                                             SF6 Emission Reduction
                                                                             Partnership for Electric
                                                                             Power Systems

                                                                             SF6 Emission Reduction
                      20                                                     Partnership for the
                                                                             Magnesium Industry

                                                                             Voluntary Aluminum
                                                                             Industrial Partnership

                       0
                             $0     $15      $30        $45     $60
                                      $/Ton CO2eq Reduced

         Source: Global Mitigation of Non-CO2 Greenhouse Gases, EPA Report, June 2006


Conclusions
         The EPA uses voluntary programs to reduce emissions in targeted industry
         sectors. However, ongoing participation and new partner recruitment is
         challenged by numerous barriers, including the perceived cost of abatement and
         reporting requirements. The overall MAC projections do not include all GHG
         sectors, and may not be updated as frequently as changes occur. If EPA
         determines a need for emissions reductions beyond the 19 percent identified in
         MAC projections, it will need to consider additional options beyond its current
         voluntary program approach.




                                                9

                                                                                08-P-0206 



Recommendations
         To ensure that EPA and potential program participants have the most up-to-date
         abatement cost data for each industry sector, we recommend that the Principal
         Deputy Assistant Administrator for the Office of Air and Radiation:

            2-1 	   Review MAC analyses annually and update as needed based on the
                    availability of updated cost and abatement technology information.

         We also recommend that the Principal Deputy Assistant Administrator for the
         Office of Air and Radiation and the Assistant Administrator for the Office of
         Solid Waste and Emergency Response:

            2-2 	   Develop applicable MAC analyses for GHG-emitting sectors where
                    they do not exist, and/or work with EPA offices responsible for the
                    corresponding voluntary GHG programs and share the methodologies
                    and tools necessary for them to develop their own analyses.

Agency Comments and OIG Evaluation
         The Agency concurred with Recommendations 2-1 and 2-2 but expressed
         concerns in developing MACs for programs that serve more than one sector. OIG
         recognizes the concern. Analyses for individual industry sectors served by EPA
         voluntary programs will meet the intent of the recommendation. The Agency’s
         complete written response, as well as our evaluation of Agency comments, is
         presented in Appendix E.




                                         10 

                                                                                  08-P-0206 





                                Chapter 3
         Reporting and Data Limitations Impede
        Assessment of Voluntary GHG Programs
          The 11 voluntary GHG programs we reviewed report program accomplishments
          using data that may be neither complete nor reliable. We do recognize that data
          collection can be challenging for these programs due to their voluntary nature.
          However, 8 of the 11 programs in our review showed weaknesses in their current
          data collection and reporting systems caused by limited, unverified, and
          anonymous data reporting. These programs’ data collection systems are neither
          transparent nor verifiable, and are limited by anonymous reporting and use of
          third party industry data. Further, none of the programs' memoranda of
          understanding establish consequences for failure to report, and generally provided
          little assurance that firms are actively participating in the program. Data
          uncertainty has continued to be a concern the voluntary programs have struggled
          to address. As a result, the reported accomplishments of these voluntary
          programs may be based on unreliable data.

Current Guidelines Do Not Address Voluntary Reporting Issues
          While the Agency has actively managed voluntary programs since the mid 1990s,
          EPA has not developed adequate guidance to ensure that data received from
          participants are reliable. Specifically, in 2006, a guidance document titled
          Guidelines for Measuring the Performance of EPA Partnership Programs was
          developed for EPA managers and staff and their contractors to use when
          developing Partnership Programs. However, it does not address issues relating to
          developing program-specific reporting requirements, developing written
          agreements, providing guidance to address data quality issues in a voluntary
          approach, or addressing failure to report. As a result, the guidance provides
          limited benefits to programs currently operating.

          Program managers told us they generally utilized the reporting requirements of
          the Voluntary Reporting of Greenhouse Gases Program under Section 1605(b) of
          the 1992 Energy Act as the framework for developing the reporting requirements
          for their programs. These requirements were available when most of the
          programs were initiated. The 1992 Act provides a method for participants to
          document their emission reduction efforts and disclose their commitment to
          voluntarily achieving environmental policy goals. However, critics of the 1605(b)
          program warn that this mechanism is very flexible and weaknesses have been
          identified, including:




                                          11 

                                                                                                      08-P-0206


                     -    voluntarily submitted GHG reduction is based on wide discretion in
                          calculating emission reductions;
                     -    data are self-certified and generally no outside verification is required; and
                     -    supporting documentation is not required and the potential exists for
                          double-counting reductions.

                 EPA told us it agreed that the reporting protocols for the 1605(b) program lacked
                 the rigor necessary to ensure a robust accounting of accomplishments. It further
                 advised that each program has developed its own more rigorous and
                 comprehensive methods and protocols that are specific to the target industry.

Voluntary Program Data Are Often Incomplete
                 EPA’s voluntary GHG programs provide influential data and need to have
                 sufficient, accurate, and reliable data collection systems to track progress toward
                 meeting UNFCCC7 treaty and administration goals. This information must also
                 be supportable, transparent, and verifiable. The inherent weakness of a voluntary
                 program is that the decision to report is solely left up to the participant. Voluntary
                 program managers rely on participants’ discretion to report timely and accurately.
                 In theory, failure to report can result in termination from the program with
                 specific conformance requirements established in a written agreement. In
                 practice, EPA program managers told us their goals are to obtain the data, not
                 eliminate non-compliant participants.

                 Issues relating to data quality have beset the EPA voluntary programs designed to
                 address greenhouse gas reductions. For example, the programs we reviewed for
                 this evaluation were included in a 2004 Office of Management and Budget
                 (OMB) PART (Program Assessment Rating Tool) review. The review examined
                 20 of EPA’s Climate Change Programs and, in the area of data collection, the
                 programs received a collective score of zero. EPA also acknowledged that its
                 data have weaknesses. Specifically, within the 2007 Greenhouse Gas Inventory,8
                 EPA stated, "Emissions calculated for the U.S. Inventory reflect current best
                 estimates; in some cases, however, estimates are based on approximate
                 methodologies, assumptions, and incomplete data."

                 Various barriers limit these voluntary programs’ ability to report reliable,
                 complete, and accurate data on GHG emissions reductions. For example, many
                 programs receive data not directly from the participant. The PFC-Semiconductors
                 Industry program and HFC-23 are two examples of programs that receive data
                 from a third party firm. In this case, third parties compile program results, and
                 because the results are considered Confidential Business Information (CBI), the
                 data are transmitted to EPA blindly. Anonymous reporting reduces data
                 transparency and prevents the program from verifying individual participants’
7
   As noted in Chapter 1 above, the United States joined other countries in signing the United Nations Framework
Convention on Climate Change (UNFCCC), an international treaty to address the danger of global climate change.
8
  Inventory of U.S. Greenhouse Gas Emissions and Sinks: 1990-2006, April 15, 2008, EPA 430-R-08-005.

                                                       12 

                                                                                                   08-P-0206


                  GHG emissions reductions. Even though EPA has the ability to protect and
                  safeguard CBI, the Agency told us that some industries still do not trust the
                  security of data submitted to EPA.

                  Often, programs with fewer numbers of partners seemed to have better results in
                  obtaining annual reports. For example, all partners in the Voluntary Aluminum
                  Industry Program reported annual outcomes, whereas only 12 percent of
                  WasteWise partners reported annual outcomes. Limited incentives exist for
                  participants to report--primarily recognition in EPA publications and awards;
                  generally, there are not consequences for not reporting.

Memoranda of Understanding Lack Consequences for Not Reporting
                  As shown in Table 3.1, many of the programs we reviewed use a memorandum of
                  understanding (MOU) as their written agreement between the participating firm
                  and EPA.9 This document generally establishes the requirements relating to
                  participation in many of the programs we reviewed. The MOUs we reviewed
                  outline expectations for both EPA and the partner entity, including annual
                  reporting. However, none of the MOUs establish consequences for failure to
                  report, and generally provided little assurance that firms are actively participating
                  in the program. Further, the MOUs do not provide provisions for EPA to
                  independently verify data that are reported. As a result, limited assurance exists
                  that the reported program accomplishments, which are influential both inside and
                  outside of EPA, are reliable and accurate.

                  Table 3.1: Programs That Use a Memorandum of Understanding (MOU)
                                   Program                   Use MOUs   Do Not Use MOUs
                   AgSTAR                                                       X
                   Coal Combustion Products Partnership                         X
                   Coalbed Methane Outreach Program                             X
                   HFC-23 Emission Reduction Program             X
                   Landfill Methane Outreach Program             X
                   Natural Gas STAR                              X
                   PFC-Semiconductor                             X
                   SF6-Electric Power                            X
                   SF6-Magnesium                                 X
                   Voluntary Aluminum Industrial Partnership     X
                   WasteWise                                                    X
                  Source: OIG program questionnaires, interviews, and business plans from EPA program
                  managers.

                  Program managers told us more rigorous requirements, such as specific
                  environmental emission reduction goals, baseline and historical data, or the
                  Agency’s ability to verify the accuracy of data currently reported would result in
                  loss of participants. They stated that their goal was to add and maintain the

9
    See Appendix C for an example of an MOU that EPA’s voluntary programs use.


                                                      13 

                                                                                  08-P-0206


         current participants in their programs. Since their programs address GHGs that
         are not regulated, they were limited in dealing with non-participating partners.

         These programs do not have a written policy on what program managers can do
         when the reporting requirements are not followed. The MOUs do not have
         oversight or monitoring provisions within their written agreements with
         participants. The program manager for the WasteWise program told us that
         WasteWise maintains a database of all partners, including those that do not report.
         The program recently purged its database of all partners no longer interested in
         participating in the program and is contacting nonreporting partners to encourage
         them to track their progress and submit reports.

         Some programs, such as AgSTAR and CMOP, do not have MOUs because they
         do not have formal participants. The EPA does not take credit for AgSTAR
         reductions in methane emissions. The program generally serves as a technical
         assistance and best practices clearinghouse. CMOP utilizes data from the U.S.
         Mine Safety and Health Administration, State oil and gas commission reports, and
         the coal mining industry. CMOP does collect mine-specific data annually and
         estimates the total methane emitted from coal mines and the quantity of methane
         gas recovered and utilized. Although CMOP does not have formal partners, the
         program asserts that methane emissions from coal mines have decreased
         34 percent from 1990 levels, and takes credit for a percentage of these reductions
         based on the program’s coal mine-specific interactions and activities.

Conclusions
         The EPA’s voluntary GHG programs report achieving emissions reductions.
         However, current data collection processes lack transparency, and some programs
         allow anonymous reporting or use third-party industry data. Also, some
         industries still do not trust the security of data submitted to EPA, which prevents
         the Agency from getting data directly from some participants. Further, program
         MOUs do not require specific emission reduction goals and lack consequences for
         not reporting. As a result, the reported accomplishments of these voluntary
         programs may be based on unreliable data.

Recommendations
         To ensure rigorous data collection and reporting for their GHG emission
         reductions, we recommend that the Principal Deputy Assistant Administrator for
         the Office of Air and Radiation and the Assistant Administrator for the Office of
         Solid Waste and Emergency Response implement the following:

              3-1   For programs that recruit and enroll participants, implement written
                    partnership agreements that require accurate data reporting and
                    verification, include consequences for not reporting, and provide
                    partners with information on how CBI will be handled.

                                         14 

                                                                                08-P-0206



            3-2     For those programs that do not recruit and enroll participants, EPA
                    should develop a policy or procedure that specifically identifies how
                    voluntary GHG programs link their reported outcomes to the efforts of
                    the program.

Agency Comments and OIG Evaluation
         The Agency generally concurred with Recommendation 3-1. It stated that, as
         directed under the FY08 Omnibus Appropriations bill signed into law on
         December 22, 2007, it is drafting a proposed rule concerning mandatory reporting
         of greenhouse gas emissions which will help improve data accuracy of these
         voluntary programs. With respect to consequences for not reporting, the Agency
         agreed to review and amend processes that address nonreporters in the programs
         as appropriate. The Agency did not fully concur with the portion of the
         recommendation relating to CBI assurances but recognized the importance of the
         issue. The Agency noted that for the two OSWER programs, CBI is protected
         consistent with the Resource Conservation and Recovery Act’s CBI regulations.
         However, the Agency stated that it cannot offer blanket assurances to safeguard
         and protect CBI data to its partners under the Clean Air Act. We amended our
         recommendation and ask the Agency to include a section on how CBI will be
         handled in its partnership agreements.

         The Agency concurred with Recommendation 3-2. It acknowledged the
         importance of having robust, meaningful policies for reporting outcomes,
         especially for programs without formal participant/partner status.

         The Agency’s complete written response as well as our evaluation of Agency
         comments is presented in Appendix E.




                                        15 

                                                                                                                                                    08-P-0206


                                   Status of Recommendations and
                                     Potential Monetary Benefits

                                                                                                                                        POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                                     BENEFITS (in $000s) 2

                                                                                                                     Planned
     Rec.    Page                                                                                                   Completion           Claimed       Agreed To
     No. 3    No.                          Subject                          Status1        Action Official             Date              Amount         Amount

     2-1       10    Review MAC analyses annually and update as               O            Principal Deputy
                     needed based on the availability of updated cost                  Assistant Administrator,
                     and abatement technology information                             Office of Air and Radiation

     2-2       10    Develop applicable MAC analyses for GHG-                 O            Principal Deputy
                     emitting sectors where they do not exist, and/or                  Assistant Administrator,
                     work with EPA offices responsible for the                        Office of Air and Radiation
                     corresponding voluntary GHG programs and share                                and
                     the methodologies and tools necessary for them to                 Assistant Administrator,
                     develop their own analyses.                                      Office of Solid Waste and
                                                                                        Emergency Response
     3-1       14    For programs that recruit and enroll participants,       O            Principal Deputy
                     implement written partnership agreements that                     Assistant Administrator,
                     require accurate data reporting and verification,                Office of Air and Radiation
                     include consequences for not reporting, and                                   and
                     provide partners with information on how CBI will                 Assistant Administrator,
                     be handled.                                                      Office of Solid Waste and
                                                                                        Emergency Response
     3-2       15    For those programs that do not recruit and enroll        O            Principal Deputy
                     participants, EPA should develop a policy or                      Assistant Administrator,
                     procedure that specifically identifies how voluntary             Office of Air and Radiation
                     GHG programs link their reported outcomes to the                              and
                     efforts of the program.                                           Assistant Administrator,
                                                                                      Office of Solid Waste and
                                                                                        Emergency Response




1	    O = recommendation is open with agreed-to corrective actions pending;
      C = recommendation is closed with all agreed-to actions completed;
      U = recommendation is undecided with resolution efforts in progress
2     Identification of potential monetary benefits was not an objective of this evaluation.
3     In accordance with EPA Manual 2750, the Agency is required to provide a written response to this report within 90 calendar days that will include a corrective
      actions plan for agreed upon actions, including milestone dates.




                                                                                  16 

                                                                                       08-P-0206


                                                                                   Appendix A

                     Detailed Scope and Methodology
Our evaluation set consists of 11 EPA voluntary programs that report GHG emission reductions
from specific industry sectors. This sample set represents approximately 7.5 percent of the total
U.S. GHG emissions. For 2005, the total U.S. GHG emissions estimates were 7,241.5 MMTCO2
eq. The industry sectors served by these programs had the potential to emit 547 MMTCO2eq. in
2005. We selected these particular voluntary GHG programs based on their ability to provide
outcome data for the years 2003 through 2005. Because the OIG was already reviewing the
ENERGY STAR programs, those programs were not included in this evaluation. The majority
of U.S. GHG emissions come from motor vehicles and fossil fuel combustion for energy, but
neither of these emission sources falls within the scope of this evaluation.

Greenhouse gases are expressed in a common metric so the emission reductions can be
accurately compared. Some gases have higher global warming potential (GWP) than others and
therefore have greater impacts on global warming overall. The international standard practice is
to express the potential impacts of gases in CO2 equivalents. See Table A.1 below for the
various GWPs of most of the gases represented by the programs in our evaluation.

    Table A.1: Global Warming Potential of Various GHGs
     Greenhouse Gas                                   GWP
     CO2                                                     1
     CH4                                                    21
     CF4 (Perfluorocarbon, PFC)                          6,500
     C2F6 ( Perfluorocarbon, PFC)                        9,200
     Hydrofluorocarbon – 23 (HFC-23)                    11,700
     Sulfur Hexafluoride (SF6)                          23,900
    Source: Inventory of U.S. Greenhouse Gas Emissions and Sinks: 

    1990 –2005, EPA Report, April 2007 


Programs can report outcomes in either MMTCO2 or in million metric tons of carbon equivalent
(MMTCE). The difference in these two measures relates to the molecular weights of carbon and
oxygen. Outcomes in MMTCE are converted to million metric tons of CO2 equivalent by
multiplying the MMTCE by 3.667.

During field work, we reviewed and assessed EPA’s guidance documents and publications
related to voluntary programs, stewardship opportunities, partnership programs, and innovation
activities. We collected each program’s background and implementation information through
questionnaires. We conducted follow-up interviews with all program officers to verify reported
information.

We reviewed annual business plans for all programs, with the exception of the HFC-23 program.
The business plans had information on the program achievements and emissions reductions,
outreach efforts (such as technical guidance, workshops, and conferences), potential program


                                                    17 

                                                                                        08-P-0206 



participants, barriers to participation, program funding requests, and program objectives and
goals.

We also reviewed the Office of Atmospheric Programs report titled Global Mitigation of Non-
CO2 Greenhouse Gases. This report provides Marginal Abatement Curves (MACs) for non-CO2
industry sectors which show the costs of reducing an additional ton of carbon emissions. These
analyses assess the various levels of mitigation options that an industry sector can apply, and
determine the potential reductions that industries can adopt. We used this information to
calculate the additional potential to reduce GHG emissions by voluntary programs, at $0/ton of
MMTCO2 eq.

The outcome reports for these programs lagged by about 2 years. When we contacted these
voluntary programs in our evaluation set, in July 2007, they had just completed compiling the
2005 data. They were able to give us projected outcomes for 2006, but most programs did not
have final data for that year. As a result, the OIG decided that it was appropriate to use the
reported outcomes for 2003-2005 in the report.

Previous OIG reports on EPA voluntary programs include Ongoing Management Improvements
and Further Evaluation Vital to EPA Stewardship and Voluntary Programs, report no. 2005-P-
00007, February 17, 2005; Partnership Programs May Expand EPA’s Influence, report no. 2007-
P-00003, November 14, 2006; and Voluntary Programs Could Benefit from Internal Policy
Controls and a Systematic Management Approach, report no. 2007-P-00041, September 25,
2007. We also reviewed data collected from our 2006 report as it related to the findings
discussed in this report.

We reviewed management controls of the Agency-wide guidance regarding designing and
measuring voluntary programs.




                                               18 

                                                                                                   08-P-0206


                                                                                            Appendix B

                        Reported Program Outcomes
Table B.1 below discusses the emissions reductions data reported by EPA’s voluntary GHG
programs from 2003 through 2005. With the exception of WasteWise, which reported the same
reductions in 2004 and 2005, and the HFC-23 program, which reported fewer reductions from
2004 to 2005, the programs we reviewed reported greater GHG emissions reductions in each
succeeding year.

   Table B.1: EPA Reported Program Outcomes, 2003-2005
                                                                   2003   2004      2005
    Program                                                        in MMTCO2 Equivalents
    AgSTAR                                                           0.37    1.03     1.10
    Coal Combustion Products Partnership                            11.11  12.80     13.60
    Coalbed Methane Outreach Program                                 6.23   6.60      7.70
    HFC-23 Emission Reduction Program                               22.44  23.47     22.73
    Landfill Methane Outreach Program                               15.03  16.13     16.50
    Natural Gas STAR                                                21.27  24.35     29.92
    PFC Reduction / Climate Partnership for
                                                                     2.93       5.13       7.70
    Semiconductors
    SF6 Emission Reduction Program for
                                                                     3.30       4.11       5.13
    Electric Power Systems
    SF6 Emission Reduction Program for
                                                                     0.07       0.59       0.81
    the Magnesium Industry
    Voluntary Aluminum Industrial Partnership                        6.34       7.55      8.07
    WasteWise                                                       10.63      12.10     12.10
    Total MMTCO2 eq. Reductions per Year                            99.73     113.85    125.36
   Source: OIG program questionnaires, interviews, and business plans from EPA program managers.
   Totals may not sum exactly due to rounding.




                                                    19 

                                                                                          08-P-0206


                                                                                      Appendix C

               Example of a Voluntary Program MOU
The MOU shown in this Appendix is an example that would be applicable to most EPA
voluntary greenhouse gas programs.



VOLUNTARY ALUMINUM INDUSTRIAL PARTNERSHIP


I.     PREAMBLE

A.      This is a voluntary agreement between the [company] __________ (hereinafter, the
partner company) and the United States Environmental Protection Agency (EPA) by which the
partner company and EPA build on the progress already achieved through the Voluntary
Aluminum Industrial Partnership from 1995 through 2000.
B.      The purpose of this agreement is to avoid emissions of CF4 and C2F6 (perfluorocarbons
– PFCs) from primary aluminum manufacturing. As of 2000, the Partner Companies had
cumulatively reduced emissions by 30%-60% from the 1990 baseline, the stated goal of VAIP.
This agreement seeks to make further reductions by expanding the opportunity for technically
feasible, cost-effective emission reductions by 2005. The partnership believes such reductions
help protect the climate.

II.    COMMON AGREEMENTS AND PRINCIPLES

A.       The partner company and EPA agree that only technically feasible and cost effective
efforts to reduce or maintain emissions of PFCs are sought.
B.       The partner company and EPA agree that consistent measurement methods for PFCs,
knowledge of the relationships between PFC generation and process and design variables, and
the development of emission factors for these gases are critical to the overall success of the
partnership.
C.       The partner company and EPA recognize that while there should be no expectation of
zero emissions of PFCs from aluminum smelting operations, there is some minimum level of
emissions that reflect the best facility-specific control possible.
D.       EPA and the partner company will work together to ensure that the record of the
reductions is at a high level of quality. EPA and the partner company expect that companies that
possess high quality emissions reductions records will be in a preferred position to participate in
any future program that provides appropriate rewards and recognition for early action.

E.      Either the partner company or EPA can discontinue this agreement 30 days after the
receipt of written notice by the other party with no penalties or continuing obligations. If either
party ends the MOU, both parties will refrain from representing that the partner company is
participating in the partnership.


                                                 20 

                                                                                         08-P-0206 



III.   EPA RESPONSIBILITIES

A.     EPA will work to improve the availability of information on the generation of PFCs and
on techniques to reduce emissions.

B.     EPA will encourage other aluminum producing countries to include PFC emission
reductions in their respective climate protection strategies and to share information on successful
emission reduction strategies.

C.     EPA will coordinate with the Department of Energy with respect to reporting under this
program and Section 1605(b)1 of the Energy Policy Act of 1992.

D.     EPA will provide the partner company with recognition for its achievements in reducing
PFC emissions and for its public service in protecting the environment. EPA will publicize the
success of the partnership and/or sponsor meetings/conferences on issues relating to the
partnership.

E.     EPA will hold confidential any information designated as confidential business
information by the Partner in accordance with applicable regulations at 40 CFR Part 2.

F.     This MOU is not a fund-obligating document. All of EPA's activities are subject to the
availability of appropriations.

G.      EPA will continue to provide a single representative for the partnership. EPA will notify
the partner company within 30 days of any change in the representative’s identity.

IV.    PARTNER COMPANY RESPONSIBILITIES

A.      The partner company will provide, on the basis of best available information and to the
degree technically and economically feasible, necessary data for calculating annual PFC
emissions including: annual production, anode effect frequency, anode effect duration; anode
effect minutes per cell day (the product of frequency and duration); and slope coefficients for
both CF4 and C2F6. The partner will provide annual data by March 31 each year, using the
reporting form in Attachment B.

B.       The Partner Company will update its emissions reduction goal(s). The year 1990 will
still be used as the base year for the partnership. If the partner so chooses, it can provide
emissions data for years prior to 1990. At a minimum the partner will strive to maintain
reductions achieved since between 1990 and 2000. The partner will submit its PFC emissions
reduction goal in conjunction with the signed MOU. The goal should include reducing one or
more of the following key factors:

*      Anode Effect Minutes per cell day
*      Anode effect frequency
*      Anode effect duration
*      PFC Emissions


                                                21 

                                                                                        08-P-0206



C.      The partner company agrees that the activities it undertakes connected with this MOU are
not intended to provide services to the Federal government, and that the Partner will not submit a
claim for compensation to any Federal agency.

D.     The partner company agrees to appoint a single representative for the partnership
(designated in attachment A of this MOU). The partner will notify EPA within 30 days of any
change in the representative’s identity.


V.     Signatories

The undersigned do hereby execute this Memorandum of Understanding on the latter of the dates
indicated below.


For the United States Environmental Protection Agency:

________________________                                            On: ________
Brian J. McLean, Acting Director
Office of Atmospheric Programs



For the Partner

       _______________________________                              On: __________




                                               22 

                                                                                        08-P-0206


                                                                                   Appendix D

      Selected Voluntary GHG Program Descriptions
   Program Name                                    Program Description

                      The AgSTAR Program is a voluntary effort jointly sponsored by EPA, the
                      U.S. Department of Agriculture, and the U.S. Department of Energy. The
                      program encourages the use of methane recovery (biogas) technologies at
AgSTAR
                      the confined animal feeding operations that manage manure as liquids or
                      slurries. These technologies reduce methane emissions while achieving
                      other environmental benefits.

                      The Coal Combustion Products Partnership (C2P2) program is a
                      cooperative effort between EPA, the American Coal Ash Association, the
                      Utility Solid Waste Activities Group, the U.S. Department of Energy, the
Coal Combustion
                      U.S. Department of Agriculture-Agricultural Research Service, the U.S.
Partnership Program
                      Federal Highway Administration, and the Electric Power Research Institute
                      to help promote the beneficial use of Coal Combustion Products and the
                      environmental benefits that result from their use.

                      The Coalbed Methane Outreach Program (CMOP) is a voluntary program
                      whose goal is to reduce methane emissions from coal mining activities.
                      The mission is to promote the profitable recovery and use of coal mine
                      methane, a greenhouse gas more than 20 times as potent as carbon
Coalbed Methane
                      dioxide. By working cooperatively with coal companies and related
Outreach Program
                      industries, CMOP helps to address barriers to using coal mine methane
                      instead of emitting it to the atmosphere. In turn, these actions mitigate
                      climate change, improve mine safety and productivity, and generate
                      revenues and cost savings.

                      The purpose of the program is to work with the producers of HCFC
                      (hydrochlorofluorocarbon)-22 refrigerant to help them reduce the byproduct
HFC-23 Program        HFC-23 emissions. The program works to "maintain low levels of
                      Hydrofluorocarbon [HFC]-23 through production process optimization, and
                      the adoption of thermal destruction processes."

                      EPA's Landfill Methane Outreach Program (LMOP) is a voluntary
                      assistance and partnership program that promotes the use of landfill gas as
                      a renewable, green energy source. Landfill gas is the natural byproduct of
Landfill Methane      the decomposition of solid waste in landfills and is composed primarily of
Outreach Program      carbon dioxide and methane. By preventing emissions of methane (a
                      powerful greenhouse gas) through developing landfill gas energy projects,
                      LMOP helps businesses, States, energy providers, and communities
                      protect the environment and build a sustainable future.

                      The Natural Gas STAR Program is a flexible, voluntary partnership between
                      EPA and the oil and natural gas industry. Through the program, EPA works
Natural Gas STAR      with companies that produce, process, and transmit and distribute natural
                      gas to identify and promote implementing cost-effective technologies and
                      practices to reduce emissions of methane, a potent greenhouse gas.




                                            23 

                                                                                                  08-P-0206 



   Program Name                                           Program Description

                             EPA’s PFC Reduction/Climate Partnership for the Semiconductor Industry
                             supports the industry’s voluntary efforts to reduce high global warming
PFC Reduction /              potential (GWP) greenhouse gas emissions by following a pollution
Climate Partnership for      prevention strategy. The greenhouse gas emissions of primary concern are
                             perfluorocarbons, trifluoromethane, nitrogen trifluoride, and sulfur
Semiconductors               hexafluoride, collectively termed perfluorocarbons (PFCs). EPA’s partners
                             have committed to reduce PFC emissions 10 percent below their 1995
                             baseline by 2010.

                             The SF6 Emission Reduction Partnership for Electric Power Systems is a
                             collaborative effort between EPA and the electric power industry to identify
SF6 Emission                 and implement cost-effective solutions to reduce sulfur hexafluoride (SF6)
Reduction Partnership        emissions. SF6 is a highly potent greenhouse gas used in the industry for
for Electric Power           insulation and current interruption in electric transmission and distribution
Systems                      equipment. The most common use for SF6, both domestically and
                             internationally, is as an electrical insulator in high voltage equipment that
                             transmits and distributes electricity.

                             The SF6 Emission Reduction Partnership for the Magnesium Industry is a
                             cooperative effort between EPA and the U.S. magnesium industry to better
                             understand and reduce emissions of SF6, a potent greenhouse gas, from
SF6 Emission                 magnesium production and casting processes. In February 2003, EPA’s
Reduction Partnership        Partners and the International Magnesium Association, committed to
for the Magnesium            eliminate SF6 emissions by year-end 2010. EPA’s voluntary partnership
Industry                     with the magnesium industry is facilitating remarkable progress towards
                             eliminating SF6 emissions by identifying, evaluating, and implementing cost-
                             effective climate protection strategies and technologies including alternative
                             cover gases.

                             The Voluntary Aluminum Industrial Partnership (VAIP) is an innovative
                             pollution prevention program developed jointly by EPA and the primary
                             aluminum industry. Participating companies (partners) work with EPA to
                             improve aluminum production efficiency while reducing perfluorocarbon
Voluntary Aluminum
                             (PFC) emissions, potent greenhouse gases that remain in the atmosphere
Industrial Partnership
                             for thousands of years. PFCs are potent greenhouse gases, characterized
                             by strong infrared radiation absorption and relative inertness in the
                             atmosphere. Primary aluminum production is a major source of global PFC
                             emissions.

                             WasteWise is a free, voluntary, EPA program through which organizations
                             eliminate costly municipal solid waste and select industrial wastes,
                             benefiting their bottom line and the environment. WasteWise is a flexible
                             program that allows partners to design their own waste reduction programs
WasteWise
                             tailored to their needs. Large and small businesses from any industry
                             sector are welcome to participate. Institutions, such as hospitals and
                             universities, nonprofits, and other organizations, as well as State, local, and
                             tribal governments, are also eligible to participate in WasteWise.

Source: OIG program questionnaires, interviews with EPA program managers and, Websites of EPA Partnership
Programs: www.epa.gov/partners/programs.




                                                     24
                                                                                       08-P-0206


                                                                                   Appendix E

             Agency Comments and OIG Evaluation

MEMORANDUM

SUBJECT:      Comments on the Office of Inspector General (OIG) Evaluation Report,
              “Voluntary Greenhouse Gas (GHG) Reduction Programs Have Limited Potential”

FROM:         Robert J. Meyers
              Principal Deputy Assistant Administrator
              Office of Air and Radiation

              Susan Parker Bodine
              Assistant Administrator
              Office of Solid Waste and Emergency Response

TO:           Jeffrey K. Harris
              Director of Special Studies
              Office of Inspector General

       The EPA Offices of Air and Radiation and Solid Waste and Emergency Response
appreciate the opportunity to review and comment on OIG’s draft evaluation report “Voluntary
Greenhouse Gas Reduction Programs Have Limited Potential” (Assignment No. 2007-000748).
We appreciate OIG’s input on the important hurdles EPA faces in our efforts to address global
climate change.

        While we acknowledge the inherent challenges in implementing partnership programs,
we also recognize that these programs have played a significant role in addressing climate
change. Through these programs, EPA has been able to establish a substantial understanding of
the policy, technical, and economic issues surrounding this multi-faceted problem, while
achieving real, tangible greenhouse gas (GHG) emission reductions.

         For all of the methane and high global warming potential (GWP) gas programs covered
in this evaluation, OAR has been able to quantify baseline emissions and reduction opportunities,
define and analyze available mitigation technologies and costs, formulate emission projections
and define emission reduction targets, and quantify the outputs and outcomes of our efforts. In
addition, OAR is doing this in a systematic and transparent way through our business planning
process. For the two OSWER programs (WasteWise and the Coal Combustion Partnership
Program (C2P2)), which achieve GHG reductions indirectly through source reduction, recycling,
and more effective materials management, we also have been able to quantify GHG reduction
benefits. We believe that our approach and rigor on these issues are not only unique within EPA,
but also are rarely observed in government.



                                               25 

                                                                                        08-P-0206 



        Most importantly, these programs have demonstrated that achieving greenhouse gas
emission reductions is not only achievable, but can be cost-effective and realized in the near-
term. In the U.S. today, methane emissions are 11 percent below 1990 levels and EPA expects
that they will remain below 1990 levels through 2020. For the High-GWP gases, these
partnership programs have also achieved significant emission reductions and industry partners
are expected to maintain emissions below 1990 levels beyond the year 2010. In the case of our
OSWER programs, in 2006, WasteWise partners who reported indicated a reduction in GHG
emissions of 40.7 MMTCO2E and the C2P2 program recycling rate resulted in GHG emission
reductions of 13.6 MMTCO2E. These are impressive achievements given the potential for
sizable expansion in many of these industries.

Below are EPA’s responses to OIG’s specific recommendations.

2-1. Review MAC analyses annually and update as needed based on the availability of
updated cost and abatement technology information.

•	 Response: OAR’s current policy is to update the marginal abatement curve (MAC) analyses
   every two years. This decision was arrived at over the last decade based on our evaluation of
   the rate of technological change, the rate of change in other drivers of emissions, and the
   required resources. Our experience indicates that the underlying factors do not change
   significantly on an annual basis and that our industry sectors and mitigation technologies do
   not evolve at a rate faster than reflected in our MAC curves. We do agree, however, that it is
   prudent to continue to monitor this situation, and are prepared to act more frequently in
   specific situations where it is clear that our analyses are not providing accurate information.
   Therefore, OAR concurs with the OIG recommendation and will review our analyses
   annually and update them as needed and appropriate.


   OIG Response:          The Agency has accepted this recommendation.


2-2. Develop applicable MAC analyses for GHG-emitting sectors where they do not exist,
and/or work with EPA offices responsible for the corresponding voluntary GHG programs
and share the methodologies and tools necessary for them to develop their own analyses.

•	 Response: MAC analyses have not been developed for the two OSWER programs
   mentioned in the report – C2P2 and WasteWise. With respect to the C2P2 program, certain
   elements of this partnership program may be appropriate for the development of MAC
   analyses. Thus, OSWER will work with OAR to develop a MAC curve for this partnership
   program. (EPA notes that C2P2, like WasteWise, is different from other GHG programs, in
   that it does not directly seek reduced emissions from targeted sectors. Instead, C2P2 efforts
   are aimed, among other things, at substitution of coal ash for Portland cement, leading to less
   Portland cement production. In developing this MAC, we will focus on the costs associated
   with this substitution.).

•	 On the other hand, a MAC analysis is not feasible for the WasteWise program because of the

                                                26 

                                                                                         08-P-0206


   wide array of sectors and materials covered by the program. WasteWise addresses multiple
   sectors, including manufacturers, retailers, governments, and academic institutions. When
   WasteWise promotes source reduction and recycling in these sectors, it can lead to GHG
   savings in a wide range of industries, including mining, forestry, agriculture, transportation,
   manufacturing, and waste management. The materials targeted include metals, wood, paper,
   plastic, food, electronics, and similar materials. It is simply not possible to conduct a MAC
   analysis for such a wide range of materials, not the least because the curve will differ
   markedly from one part of the country to another (for example, because of differences in
   local markets, collection infrastructure, and disposal rates). Therefore, EPA strongly
   disagrees with the recommendation that it develop a MAC analysis for the WasteWise
   program. The task would not yield useful or meaningful information for managing the
   program.

   OIG Response:        The Agency concurred with Recommendation 2-2, but expressed
   concerns in developing MACs for programs, like WasteWise, that serve more than one
   sector. OIG recognizes the concern. Analyses for individual industry sectors served by
   EPA voluntary programs will meet the intent of the recommendation.


3-1. For programs that recruit and enroll participants, implement written partnership
agreements that require accurate data reporting and verification, assure participants that
CBI data will be safe guarded and protected, and include consequences for non-reports.

•	 Response: The Agency recognizes the critical importance of accurate data reporting and
   verification. Currently, as directed by Congress under the FY08 Omnibus Appropriations
   bill signed into law on December 26, 2007, OAR is in the process of developing a rule to
   require mandatory reporting of greenhouse gas emissions across all sectors of the economy.
   Pending publication of the draft rule and following the public comment period, the final rule
   will require these data to be submitted on at least an annual basis, according to
   methodologies to be specified for each sector. Requirements for data quality assurance /
   quality control and verification will also be included in the rule. The outcome of the
   rulemaking process will help to inform all of the voluntary programs’ efforts to improve data
   accuracy. The Agency plans to review and amend our program requirements in light of what
   is learned from the mandatory rulemaking process

•	 On the specific question of partnership agreements, we agree with the recommendation that
   these programs have written partnership agreements, and we agree on the importance of
   accurate reporting within EPA’s programs. As discussed later in this response, we believe
   the programs under review already require accurate data reporting and verification.

•	 Regarding the recommendation to “assure participants that CBI will be safeguarded and
   protected,” EPA cannot offer blanket assurances to partners under the Clean Air Act given
   the complex legal issues surrounding the determination of CBI data. EPA’s ability to protect
   information that partner companies may consider “business sensitive” is limited due to the
   Clean Air Act’s requirement to disclose “emissions data” to the public. We recognize the
   importance of this issue, however, and have developed mechanisms to address issues related

                                               27 

                                                                                       08-P-0206 



   to CBI as they are brought up by partners in our programs. For example, in situations where
   disclosure of company-specific data may inform competitors about a unique production
   process or level of activity, OAR’s partnership programs may establish a mutually acceptable
   third party to act as a data repository and provide an increased level of confidentiality. OAR
   acknowledges that such third party reporting mechanisms can increase EPA’s administrative
   burden, and may hamper its review of data quality, and these types of arrangements are
   uncommon in our programs. With respect to the two OSWER Programs, the Agency rarely
   receives information that is claimed as CBI, but when such information is submitted, we will
   protect it consistent with the Resource Conservation and Recovery Act’s (RCRAs) CBI
   regulations.

•	 With respect to the importance of consequences for non-reporters, EPA programs have
   processes in place if partners do not report. For instance, the Gas STAR program has a clear,
   documented, three-step process to deal with late or non-reporters. The program follows this
   process rigorously and removes non-compliant Partners from the program. EPA does not
   accept new members to the WasteWise program who don’t give baseline information, and
   WasteWise partners who don’t report are not eligible for awards, recognition, or climate
   profiles. However, while EPA’s voluntary partnerships have removed non-reporting partner
   companies on occasion, the programs typically exercise patience recognizing the firms’
   varying business challenges and the value of maintaining an industry sector network through
   which to share information on emission reduction technologies. EPA will review and amend
   our processes in these programs as appropriate.


   OIG Response:           The Agency generally concurred with Recommendation 3-1. It stated
   that, as directed under the FY08 Omnibus Appropriations bill signed into law on December
   22, 2007, it is drafting a proposed rule concerning mandatory reporting of greenhouse gas
   emissions which will help improve data accuracy of these voluntary programs. With respect
   to consequences for not reporting, the Agency agreed to review and amend processes that
   address nonreporters in the programs as appropriate. The Agency did not fully concur with
   the portion of the recommendation relating to CBI assurances but recognized the importance
   of the issue. The Agency noted that for the two OSWER programs, CBI is protected
   consistently with CBI-RCRA regulations. However, the Agency stated that it cannot offer
   blanket assurances to safeguard and protect CBI data to its partners under the Clean Air Act.
   We amended our recommendation and ask the Agency to include a section on how CBI will
   be handled in its partnership agreements.


3-2. For those programs that do not recruit and enroll participants, EPA should develop a
policy or procedure that specifically identifies how voluntary GHG programs link their
reported outcomes to the efforts of the program.

•	 Response: The Agency acknowledges the importance of having robust, meaningful policies
   for reporting outcomes, especially for programs without formal participant / partner status.
   Many of the programs which fall into this category, such as the Coalbed Methane Outreach
   Program (CMOP), have in fact developed a standardized, documented procedure that


                                               28 

                                                                                           08-P-0206


   specifies how the program’s annual reported outcomes are linked to the program’s efforts.
   For example, CMOP’s annual business plan documents the methodology by which the
   program assesses the emission reductions associated with coal mines on a mine-specific
   basis, linked to the extent of the program’s historical association with and level of effort to
   promote particular coal mine methane recovery projects.

•	 We concur that having policies and procedures to link program results and outcomes is
   important. Therefore, EPA concurs with this recommendation, and we will review our
   programs that do not recruit and enroll participants in light of this recommendation and
   develop a procedure, or document existing procedures, as appropriate. Also, while C2P2
   does enroll partners, partners do not make specific commitments (C2P2 members are
   generally not users of coal ash themselves; instead, C2P2 works to reduce barriers to coal ash
   reuse, or to increase opportunities for reuse). However, EPA will include C2P2 in this
   recommendation.


 OIG Response:          The Agency has accepted this recommendation.


Attached to this document are additional comments.

Thank you again for the opportunity to comment on the draft evaluation report. If you have
questions, please contact Dina Kruger, Director of the Climate Change Division, at
(202) 343-9039 or Vern Myers, Acting Associate Director of the Municipal and Industrial Solid
Waste Division, at 703-308-8660.


                                         ATTACHMENT

 Additional Comments on OIG Report “Voluntary Greenhouse Gas Reduction Programs Have 

                    Limited Potential” Assignment No. 2007-000748


General Comments

•	 The study states that its focus is on voluntary programs that report GHG emissions reductions
   from (a) specific industry sectors that (b) do not release emissions from motor vehicles and
   fossil fuel combustion. However, the WasteWise program targets multiple sectors, and the
   C2P2 and WasteWise programs do not target direct emissions from fossil fuel combustion.
   Thus, we suggest that the report be revised by making note of this and expanding the criteria
   for including programs accordingly.

 OIG Response:            We believe our descriptions of the programs are adequate. On page 2 

 of the draft report, the WasteWise program is noted as serving multiple industry sectors. On 

 page 4, the first paragraph under Scope and Methodology explains that programs were

 chosen because they report GHG emissions reductions. The second paragraph under Scope 

 and Methodology states that C2P2 and WasteWise programs report achieving secondary 

 GHG emissions reductions benefits. 

                                                29 

                                                                                                          08-P-0206 



•	 The report in other respects mischaracterizes the C2P2 and WasteWise programs. For
   example, the C2P2 program is not designed to sign up partners and measure the progress
   those partners have made. Rather, the C2P2 program was designed to increase the amount of
   coal combustion products that are reused/recycled, by reducing barriers to and increasing
   opportunities for coal ash recycling, which would have the benefit of reducing GHG
   emissions. (For example, as part of its contributions to C2P2, EPA works with state materials
   reuse programs to foster the beneficial use of coal ash, it provides technical advice on coal
   ash use to construction projects and engineers, and it works with the Federal Highway
   Administration (FHWA) and state DOTs to foster the use of coal ash in highway
   construction.)10 Therefore, we suggest that the report more accurately characterize these
   programs.

     OIG Response:         Based on the data that OIG collected, we believe that we have 

     appropriately characterized these programs in the report. 



•	 WasteWise, C2P2, and several of the climate change programs in OAR have additional
   benefits besides reducing GHG emissions, such as resource conservation, air and water
   quality improvements, and energy benefits. In the case of the OSWER programs, however,
   the report only briefly mentions that the main purpose of these programs is resource
   conservation and not GHG emission reductions. The report would be improved by
   acknowledging these additional benefits.

     OIG Response:         We believe that the report adequately addressed this topic. The
     second paragraph under Scope and Methodology states that the C2P2 and WasteWise
     programs report achieving secondary GHG emissions reductions benefits and provides that
     the two programs are primarily waste reduction programs.


Chapter 1 – Introduction

•	 On page 2, the report states that the industry sectors and emission sources addressed by these
   11 programs had the potential to emit 547 MMTCO2E. However, this does not acknowledge
   that WasteWise targets many industry and commercial sectors, as well as governmental and
   academic institutions. It also addresses emissions indirectly. As a result, this figure may be
   an underestimate. The report could be strengthened by providing information on how this
   number was derived, as well as the limitations in deriving this value. Additionally, here and
   elsewhere in the report where the 11 sectors are mentioned, it should state that there are 10
   specific sectors covered and acknowledge that WasteWise is a broad program targeting
   multiple sectors.



10
  EPA notes that C2P2 is part of a broader EPA effort with FHWA, USDA, states, and the Industrial Resources
Council to increase the beneficial use of secondary materials from industrial processes, including coal ash, foundry
sands, iron and steel slag, and construction and demolition debris.

                                                         30 

                                                                                          08-P-0206 



   OIG Response:          We have removed the number “11” from the text of this section and
   in the footnote have added the following: "Because WasteWise addresses numerous sectors,
   the program's GHG emission volumes are not included in the 2005 potential GHG
   emissions volumes."


•	 On page 4, the report acknowledges that the majority of U.S. GHG emissions come from
   fossil fuel combustion for energy and transportation, and states that neither of these emission
   sources falls within the scope of this evaluation. However, many of the GHG benefits
   attributable to both WasteWise and C2P2 are attributable to reduced energy demand as a
   result of displacing virgin material extraction and manufacturing with recycled feedstocks.
   Therefore, it may be misleading to state that the report does not address energy and
   transportation emission sources. It does so at least indirectly, by evaluating the results of the
   WasteWise and C2P2 programs.

   OIG Response:        The statement indicating that GHG emissions from fossil fuel
   combustion are outside the scope of this study has been removed.


Chapter 3 – Reporting and Data Limitations Impede Assessment of Voluntary GHG
Programs.

•	 We strongly assert that all of OAR’s Non-CO2 GHG programs have robust, transparent
   reporting methods, protocols, and systems in place to ensure the accuracy of our reported
   outcomes. Due to the inherent nature of voluntary programs, EPA cannot mandate that the
   companies or entities we are partnering with report comprehensive data to EPA. However,
   EPA can, and does for all of the Non-CO2 Programs, strongly encourage participating entities
   to report detailed information and data on their activities to ensure that we are accurately
   accounting for their efforts and for the outcomes of our programs. In addition to auditing data
   for completeness and other QA/QC checks, training in some programs is routinely offered on
   data collection methods to better ensure consistency and accuracy of reporting. To this end,
   our Non-CO2 programs have actually been world leaders in developing methodologies for
   calculating and reporting emissions and emission reductions.

   OIG Response:            Our report demonstrates that the Agency needs to strengthen
   weaknesses in data collection and reporting activities to ensure the reliability and accuracy
   of information provided to the public. We did not review the Agency’s methodology for
   calculating emissions levels. However, 8 out of 11 programs reviewed had specific
   weaknesses relating to the data used to report accomplishments, the sources, reliability, and
   transparency of data as it relates to specific programs. While our report acknowledges the
   inherent challenges of voluntary programs, we believe that the areas of data collection and
   reporting are critical to demonstrate the progress of these programs. As such, reporting that
   is anonymous and unverifiable in some cases in our opinion is not transparent.
   Additionally, when a program only receives annual reports from 12 percent of its
   participants, or when programs report results, without participants, or without the ability to
   verify third party data, the credibility of the data reported becomes an issue.

                                                 31 

                                                                                        08-P-0206


•	 OSWER’s partnership programs have similar approaches. WasteWise relies on direct reports
   from partners, which are not anonymous. EPA reviews reports from partners, and believes
   that our current approach to collection of data is appropriate for partnership programs. It
   allows us to demonstrate program results without creating a burdensome and intrusive
   process that might drive down participation while running up costs for partners and the
   Agency. With regard to the C2P2 program, the national data are a result of an extensive
   survey by the American Coal Ash Association and supplemental work by the Department of
   Energy. This information developed on a yearly basis, has been in the public domain for
   over a decade, and EPA is not aware of any significant challenges to the extent or soundness
   of this data.

   OIG Response:          Based on the information OIG collected, OSWER does not verify the
   accuracy of the data submitted at the participant level or provided by third parties. See our
   response to OAR's comment above.


•	 The first paragraph on page 12 begins with “EPA told us it agreed that…” Other sections of
   the narrative contain similar text (i.e., page 13: “the Agency told us…”). These give the
   mistaken impression that the authors are not also part of EPA. Thus, we suggest that the
   report would be strengthened by an editorial correction here.

   OIG Response:        The document indicates the author of the report is the EPA Office of
   Inspector General. The OIG is a part of the Agency; however, the OIG was created by
   Congress as an independent oversight organization.


•	 Also on page 12, the report states that “The inherent weakness of a voluntary program is that
   the decision to report is solely left up to the participant.” The report would be strengthened
   by a balancing statement, acknowledging the inherent strength of a voluntary program (e.g.,
   implementation of environmentally beneficial strategies at a significant reduction in
   transactional costs to U.S. industry).


   OIG Response:          Our statement refers to the challenges of voluntary program data 

   collection, and does not address the overall transaction costs of the participants. 


•	 On page 12, the report also implies that these voluntary programs utilize the 1605(b)
   reporting requirements of the 1992 Energy Act and highlights some of the weaknesses of that
   approach. OAR emphasizes that the Non-CO2 voluntary programs have long believed that
   the 1605(b) reporting protocols lacked the rigor necessary to ensure a robust accounting of
   our accomplishments. As such, none of the Non-CO2 programs use the 1605(b) system.
   Each program has developed its own more rigorous and comprehensive methods and
   protocols that are specific to our target industry and greenhouse gas. WasteWise does not
   use the voluntary reporting under 1605(b). Rather, since 2005, EPA has required every new
   WasteWise partner joining the program to submit baseline data.



                                               32 

                                                                                       08-P-0206 



   OIG Response:          As a result of previous communication with the Agency, the OIG
   refocused its discussion of the Section 1605b requirements. We believe that we have been
   clear regarding the Agency's use of the 1605b requirements as a reporting framework. The
   report also mentions that EPA determined the inadequacies of the 1605b reporting format,
   and that the Agency has made improvements beyond the minimum requirements of 1605b.



•	 The IG report cites “a recent” review by the Office of Management and Budget (OMB)
   Program Assessment Rating Tool (PART) of EPA Climate Change Programs, which scored a
   zero for “data collection.” The report quotes the PART: “While EPA collects a lot of data …
   on progress for certain programs / sectors and in those cases the programs / sectors clearly
   use the data to make resource and planning decisions this is not the case for all programs /
   sectors reviewed in this PART.” OAR strongly disagrees with this statement as it applies to
   the current performance of its programs under review by the IG in this report.
       o	 The PART assessment of EPA’s climate change programs covers 20 different
          programs. The assessment does not specify which of the 20 programs it reviewed are
          deficient in this regard, and cites no evidence to support this statement. Thus, OAR
          believes that it is impossible to say whether there is in fact any overlap between the
          PART critique of 20 climate change programs and the programs under IG review in
          this case.
       o	 Furthermore, the OMB PART review cited was conducted in 2004, and to OAR’s
          knowledge, has not been revised or updated since then. OAR is not aware of any
          recent review that scored these programs “zero” on data collection. In response to the
          2004 report, OAR has provided annual updates of aggregate program metrics, as
          requested by OMB, and OAR has not received any communication from OMB that
          these annual updates are insufficient.

   OIG Response:           We revised the report to reflect the change from “recent” to "2004."
   We have revised the report to read, “…the programs we reviewed for this evaluation were
   included in a 2004 Office of Management and Budget (OMB) PART (Program Assessment
   Rating Tool) review. The review examined 20 of EPA’s Climate Change Programs and, in
   the area of data collection, the programs received a collective score of zero.”


•	 The IG also cites the 2007 Greenhouse Gas Inventory in support of its conclusion that
   voluntary program data are incomplete. The scope of the U.S. Inventory is national
   greenhouse gas emissions from all sources. The IG report implies that deficiencies in data
   collection apply to the US emissions inventory and are relevant to the voluntary programs as
   well, citing the 2007 report in part: “in some cases, estimates are based on approximate
   methodologies, assumptions, and incomplete data.” OAR believes that this comment is
   misleading and inaccurate. The national inventory is far broader in scope than the 11
   voluntary programs under review in this report, which represent only about 7.5% of national
   emissions. The U.S. Inventory is completed annually in accordance with treaty obligations
   under the UN Framework Convention on Climate Change. Prior to 2008, EPA did not have


                                               33 

                                                                                         08-P-0206


   legislative authority to compel reporting on emissions. Nonetheless, the U.S. Inventory is
   completed using methods prescribed by the Intergovernmental Panel on Climate Change to
   address incomplete data, and other challenges associated with estimating emissions across
   numerous sectors. Per the inventory reporting requirements under the UN Framework
   Convention on Climate Change, the U.S. Inventory is subject to annual peer reviews by
   panels of international greenhouse gas inventory experts. In February 2008, an international
   team of experts convened in Washington DC to peer review the 2007 Greenhouse Gas
   Inventory, and the experts' review findings complimented the excellent quality of the U.S.
   Inventory.


   OIG Response:           The report cites an example of how EPA results were qualified within
   the Annual Inventory as having data collection issues. This is an example of a data
   collection issue cited by the Agency. The statement in the draft report did not cite or project
   deficiencies to the total U.S. Greenhouse Inventory or its processes or collection
   methodologies as these were not in the scope of this review.


•	 On page 14, the report states that “The program manager for the WasteWise program told us
   that they have recently purged their program of non-reporting participants.” That sentence
   should be revised to read as follows: “WasteWise maintains a database of all partners,
   including those that do not report. The program recently purged its database of all partners no
   longer interested in participating in the program and is contacting non-reporting partners to
   encourage them to track their progress and submit reports.”

   OIG Response:           We modified the report to read, "The program manager for the
   WasteWise program told us that WasteWise maintains a database of all partners, including
   those that do not report. The program recently purged its database of all partners no longer
   interested in participating in the program and is contacting nonreporting partners to
   encourage them to track their progress and submit reports."




                                                34 

                                                                              08-P-0206


                                                                            Appendix F

                                   Distribution

Office of the Administrator
Deputy Administrator, Office of the Administrator
Associate Administrator, Office of Policy, Economics, and Innovation
Principal Deputy Assistant Administrator, Office of Air and Radiation
Assistant Administrator, Office of Solid Waste and Emergency Response
Office of General Counsel
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Air and Radiation
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Deputy Inspector General




                                           35 

